Audit Report




OIG-07-017
Audit of the Exchange Stabilization Fund’s Fiscal Years 2006
and 2005 Financial Statements


December 5, 2006




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL




                                               December 5, 2006


            MEMORANDUM FOR CLAY LOWERY
                           ASSISTANT SECRETARY FOR INTERNATIONAL AFFAIRS

            FROM:                   Joel A. Grover
                                    Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                Audit of the Exchange Stabilization Fund’s Fiscal Years 2006
                                    and 2005 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statements for fiscal years (FY) 2006 and 2005. Under a contract
            monitored by the Office of Inspector General, Clifton Gunderson LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of ESF as of September 30, 2006 and 2005 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards and the GAO/PCIE Financial
            Audit Manual.

            The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
            attachment:

                    •   Independent Auditor’s Report;
                    •   Independent Auditor’s Report On Internal Control; and
                    •   Independent Auditor’s Report On Compliance With Laws and Regulations.

            In its audit, Clifton Gunderson LLP found:

                •   the financial statements present fairly, in all material respects, the financial
                    position as of September 30, 2006 and 2005, and the results of its
                    operations and its cash flows for the years then ended in conformity with
                    accounting principles generally accepted in the United States of America;
Page 2


   •   no matters involving internal control and its operation that are considered
       material weaknesses; and
   •   no instances of reportable noncompliance with laws and regulations tested.

In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. Clifton
Gunderson LLP is responsible for the attached auditor’s reports dated
October 31, 2006 and the conclusions expressed in the reports. However, our
review disclosed no instances where Clifton Gunderson LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
DEPARTMENT OF THE TREASURY,

  Exchange Stabilization Fund





       FINANCIAL STATEMENTS


     September 30, 2006 and 2005

                                               TABLE OF CONTENTS




                                                                                                                            PAGE


INDEPENDENT AUDITOR’S REPORT ...................................................................................1


INDEPENDENT AUDITOR’S REPORT ON

  INTERNAL CONTROL...........................................................................................................3


INDEPENDENT AUDITOR’S REPORT ON

  COMPLIANCE WITH LAWS AND REGULATIONS........................................................4


POLICY AND OPERATIONS STATEMENTS ........................................................................5


FINANCIAL STATEMENTS


    Statements of Financial Position................................................................................................8

    Statements of Income and Retained Earnings ...........................................................................9

    Statements of Cash Flows........................................................................................................10


    Notes to Financial Statements..................................................................................................11

A1

                                          Independent Auditor’s Report


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the accompanying statements of financial position of the U. S. Department of
the Treasury’s Exchange Stabilization Fund (ESF) as of September 30, 2006 and 2005, and the
related Statements of Income and Retained Earnings, and Statements of Cash Flows for the years
then ended. These statements are the responsibility of ESF’s management. Our responsibility is
to express an opinion on these statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall presentation of the financial statements. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of ESF as of September 30, 2006 and 2005, and the results of its operations
and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
October 31, 2006, on our consideration of ESF’s internal control over financial reporting relating
to its financial statements and on our tests of ESF’s compliance with certain provisions of laws
and regulations relating to its financial statements. The purpose of those reports is to describe
the scope of our testing of internal control over financial reporting and compliance and the
results of that testing and not to provide an opinion on internal control over financial reporting or
compliance. Those reports are an integral part of our audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




Offices in 15 states and Washington, DC                1                                     h
Our audits were performed for the purpose of forming an opinion on the accompanying financial
statements taken as a whole. The policy and operations statements are presented for purposes of
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the basic financial
statements and, accordingly, we express no opinion or any other form of assurance on it.
However, we compared the information for consistency with the financial statements and, based
on these limited procedures, we found no material inconsistencies.


a1
Calverton, Maryland
October 31, 2006




                                               2

A1

                               Independent Auditor’s Report On Internal Control


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of and for the year ended September 30, 2006, and have issued our
report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

In planning and performing our audit, we considered ESF’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing an opinion
on the financial statements and not to provide an opinion on the internal control over financial
reporting. Our consideration of the internal control over financial reporting for ESF’s financial
statements would not necessarily disclose all matters in the internal control over financial
reporting for its financial statements that might be a material weakness. A material weakness is
a condition in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by error or fraud in
amounts that would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. We noted no matters involving the internal control over financial reporting
and its operation that we consider to be a material weakness.

This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
October 31, 2006




Offices in 15 states and Washington, DC               3                                  h
A1

            Independent Auditor’s Report On Compliance With Laws and Regulations


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of and for the year ended September 30, 2006, and have issued our
report thereon dated October 31, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

As part of obtaining reasonable assurance about whether ESF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit and, accordingly, we do not express such
an opinion. The results of our tests of compliance disclosed no instances of noncompliance that
are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
October 31, 2006




Offices in 15 states and Washington, DC          4                                      h
                                Exchange Stabilization Fund

                              Policy and Operations Statements

                                       Fiscal Year 2006



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay $1.8
billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976 (P.L. 94­
564, effective April 1, 1978, the date of entry into force of the Second Amendment of the IMF
Articles of Agreement) amended the language of Section 10 of the Gold Reserve Act to specify
that the ESF is to be utilized as the Secretary “may deem necessary to and consistent with the
United States obligations in the International Monetary Fund.” In 1977, P.L. 95-147 further
amended Section 10 of the Gold Reserve Act. Following codification, Section 10 now provides
as follows:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564,
which was approved October 18, 1976 and became effective April 1, 1978), Special Drawing
Rights (SDRs) allocated by the IMF to the United States or otherwise acquired by the United
States are resources of the ESF.




                                               5

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR
certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.     Foreign Currency Operations

       During fiscal year 2006, the ESF engaged in no market transactions.

       a. Euros and Japanese Yen

          The ESF had a net valuation gain of $250.3 million on its holdings of euros and yen.
          The ESF had investment income of $318.9 million equivalent on its euro and $9.5
          million equivalent in its yen assets.

       b. Mexico

          In December 2005, the Treasury and Federal Reserve Bank of New York renewed the
          Exchange Stabilization Agreement with Mexico for another year to December 2006.

II.    SDR Operations

       As of September 30, 2006, U. S. holdings (assets) of SDRs totaled SDR 5.9 billion ($8.7
       billion equivalent), a net increase of SDR 0.2 billion during Fiscal Year 2006. However, as
       the SDR appreciated against the dollar in this period, there was a net valuation gain of
       $156.1 million on U. S. holdings of SDRs. The ESF reimbursed the Treasury’s General
       Fund $209.5 million for SDRs received from the IMF as remuneration on the U. S. reserve
       position in the IMF. The ESF earned interest of $288.6 million equivalent on its SDR
       holdings.

       As of September 30, 2006, cumulative allocations to (liabilities of) the United States
       totaled SDR 4.9 billion ($7.2 billion equivalent). These liabilities would come due only in
       the event of liquidation of, or U. S. withdrawal from, the SDR Department of the IMF, or
       cancellation of SDRs.

       There were $2.2 billion of SDR certificates that had been issued to the Federal Reserve
       System prior to Fiscal Year 2006 and remained outstanding at the end of the fiscal year.


III.   Income and Expense

       Interest revenue totaled $1,302.5 million, consisting of $685.5 million in interest on dollar
       holdings invested in U. S. Government securities, $288.6 million equivalent in interest on
       SDR holdings, and $328.4 million equivalent in interest on foreign currency investments.




                                                  6

Interest expense totaled $244.4 million, which included $243.9 million in interest charges
on SDR Allocations and $0.5 million paid by the ESF to the Treasury General Fund on the
dollar counterpart of SDRs received as remuneration on the U. S. reserve position in the
IMF.




                                         7

DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                         2006             2005

Assets

Cash and Cash Equivalents (Note 2)
   U. S. Government Securities                       $ 15,711,045     $ 15,237,881
   Foreign Currency Denominated Assets                  6,809,712        6,575,463
Total Cash and Cash Equivalents                        22,520,757       21,813,344

Other Foreign Currency Denominated
   Assets (Note 3)                                        3,830,956        3,557,109
Special Drawing Right Holdings (Note 4)                   8,654,510        8,244,662
Investment Securities, Held to Maturity (Note 5)          9,171,379        9,109,414
Accrued Interest Receivable                                 187,636          161,554

Total Assets                                         $ 44,365,238     $ 42,886,083


Liabilities and Equity

Liabilities
   Certificates Issued to Federal Reserve
    Banks (Note 6)                                   $    2,200,000   $    2,200,000
   Special Drawing Right Allocations (Note 4)             7,233,519        7,101,673
   Accrued Expenses and Other                                46,929           32,172

Total Liabilities                                         9,480,448        9,333,845

Equity
  Appropriated Capital                                      200,000          200,000
  Retained Earnings                                      34,684,790       33,352,238
Total Equity                                             34,884,790       33,552,238

Total Liabilities and Equity                         $ 44,365,238     $ 42,886,083




                                                8

DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND RETAINED EARNINGS
(In Thousands)

Years Ended September 30                                   2006             2005

Interest Revenue:
   Interest on U. S. Government Securities           $     685,477    $     322,449
   Interest on Foreign Currency
     Denominated Assets                                     193,328         156,568
   Interest on Special Drawing Right Holdings               288,607         280,850
   Interest on Investment Securities                        135,111         127,679
Total Interest Revenue                                    1,302,523         887,546

Interest Expense
   Interest on Special Drawing Right Allocations           243,944          175,704
   Interest on Special Drawing Right Received
     as Remuneration by the U. S. Treasury                     490              466
Total Interest Expense                                     244,434          176,170

Net Interest Revenue                                      1,058,089         711,376

Net Gains (Losses)
  Net Gain (Loss) on Valuation of:
    Special Drawing Rights                                  24,477            41,587
    Foreign Currency Denominated Assets                    250,330          (568,846)
Total Net Gains (Losses)                                   274,807          (527,259)

Other Expenses
  International Monetary Fund Annual
    Assessment                                                 344              523

Net Income                                                1,332,552         183,594

Retained Earnings, Beginning of Year                     33,352,238       33,168,644

Retained Earnings, End of Year                       $ 34,684,790     $ 33,352,238




                                                9

DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)
Years Ended September 30                                                 2006              2005
Cash Flows from Operating Activities:
   Interest Received on:
       U. S. Government Securities                                $     683,282     $     322,449
       Foreign Currency Denominated Assets                              180,656           158,146
       Investment Securities                                            165,815           154,160
   Net Gain (Loss) on Valuation of Foreign Currency
     Denominated Assets                                                  250,330          (568,846)
   Other                                                                 (26,847)          (22,229)
Net Cash Provided by Operating Activities                              1,253,236            43,680

Cash Flows from Investing Activities:
  Net (Increase) Decrease in Foreign Currency
    Denominated Assets                                                  (273,847)           26,649
   Net (Increase) Decrease in Investment Securities                      (61,965)        1,527,565
   Purchases of Special Drawing Rights Received as Remuneration
     by the U. S. Treasury and Related Interest                         (210,011)         (316,482)
  Sales of Special Drawing Rights                                           -            4,913,104
Net Cash (Used in) Provided by Investing Activities                     (545,823)        6,150,836

Net Increase in Cash and Cash Equivalents                                707,413         6,194,516
Cash and Cash Equivalents, Beginning of Year                          21,813,344        15,618,828

Cash and Cash Equivalents, End of Year                            $22,520,757       $21,813,344

Reconciliation of Net Income to Net Cash Provided
 by Operating Activities
Net Income                                                        $ 1,332,552       $     183,594
Adjustments to Reconcile Net Income to Net Cash
 Provided by Operating Activities:
     (Increase) Decrease in Special Drawing Right
       Holdings Due to Valuation                                        (156,122)           53,828
     Net Interest Received in Special Drawing Rights                     (43,715)         (113,129)
     (Increase) Decrease in Accrued Interest Receivable                  (26,082)            6,520
     Increase (Decrease) in Special Drawing Right
       Allocations Due to Valuation                                   131,846          (95,687)
     Increase in Accrued Expenses and Other                            14,757            8,554
Total Adjustments                                                     (79,316)        (139,914)
Net Cash Provided by Operating Activities                         $ 1,253,236       $   43,680




                                               10

DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
NOTES TO FINANCIAL STATEMENTS

September 30, 2006 and 2005

Note 1. Summary of Significant Accounting Policies
The Exchange Stabilization Fund (ESF) was established as a result of the Gold Reserve Act of
1934, as amended, to be operated by the Secretary of the Treasury, with the approval of the
President, consistent with the obligations of the U. S. Government in the International Monetary
Fund (IMF) on orderly exchange arrangements and a stable system of exchange rates. To this
end, the Secretary of the Treasury may deal in gold, foreign exchange, and other instruments of
credit and securities.

A. Basis of Accounting & Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted
accounting principles, based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private-sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) was designated by the American Institute of Certified
Public Accountants (AICPA) as the standards-setting body for financial statements of federal
government entities, with respect to the establishment of generally accepted accounting
principles. FASAB has indicated, however, that financial statements prepared based upon
accounting standards published by the FASB may also be regarded as in accordance with
generally accepted accounting principles for those federal entities, such as the ESF, that have
issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, the ESF financial statements are presented in accordance
with accounting standards published by the FASB. In accordance with generally accepted
accounting principles, the preparation of financial statements requires the use of management to
make estimates and assumptions that affect the reported amounts of assets and liabilities and
disclosures of contingent assets and liabilities at the date of the financial statements and the
reported amounts of revenues and expenses during the reporting period. Actual results could
differ from those estimates.

B.   Fair Values of Financial Instruments

Cash and Cash Equivalents, which consist of U. S. Government securities and Foreign Currency
Denominated Assets (FCDA), are reported in the Statement of Financial Position at amounts that
approximate their fair values. The fair value of Investment Securities is based upon quoted
market prices (See Note 5). FCDA, Other FCDAs, Special Drawing Right (SDR) Holdings, and
SDR Allocations have been revalued in the Statement of Financial Position, using current
exchange rates, to amounts which approximate fair value. The SDR Certificates issued to
Federal Reserve Banks (FRB) are reflected on the Statement of Financial Position at their face
value.




                                              11

Note 1. Summary of Significant Accounting Policies (Continued)
It is not practicable to estimate the fair value of these Certificates issued to FRBs since these
Certificates contain no specific terms of repayment. ESF enters into guarantee agreements which
represent commitments by Treasury with lenders and/or investors that provide for repayment of
all or part of the principal and/or interest on certain debt obligations of a borrower and/or issuer.
The ESF is exposed to credit risk on guarantees in the event that it has to honor a guarantee and
is unable to recover from the borrower the amounts advanced under the guarantee. It is not
practicable to estimate the fair value of these guarantee agreements because no similar
agreements that have comparable credit risk could be readily identified. Therefore, excessive
costs would be incurred to estimate the fair value of these guarantee agreements.

C. Translation of Foreign Currency Denominated Assets and Liabilities

In accordance with Statement of Financial Accounting Standards (SFAS) No. 52, “Foreign
Currency Translation”, FCDA and liabilities are revalued daily to reflect current exchange rates
in effect as of the reporting date. The gains or losses resulting from changes in exchange rates
are reported separately in the Statement of Income and Retained Earnings.

D. U. S. Government Securities

ESF invests dollars in excess of its immediate needs in overnight, non-marketable U. S.
Government securities issued by the Treasury. The interest rate paid on the investments is the
overnight repurchase agreement rate as established by the Bureau of Public Debt.

Note 2. Cash and Cash Equivalents
Cash equivalents are short-term, highly liquid investments that are both readily convertible to
known amounts of cash, and so near their maturity that they present insignificant risk of change
in value due to changes in interest rates. Generally, only investments with original maturities of
three months or less qualify under that definition. U. S. Government securities and FCDAs with
original maturities of three months or less, except for foreign currencies acquired under swap
agreements with developing countries, are treated as cash equivalents.

The ESF invests a portion of its European Euro holdings through repurchase agreements in
securities issued by, and backed by the full faith and credit of the Federal Republic of Germany.
As of September 30, 2006 and September 30, 2005 the amounts of repurchase agreements were
approximately $2.1 billion and $1.9 billion, respectively. These repurchase agreements are
considered to be FCDAs with original maturities of three months or less, which are treated as
cash equivalents, as discussed above. Such investments are made by the Federal Reserve Bank
of New York (FRBNY), as fiscal agent of the Treasury, in connection with the ESF’s
participation in such repurchase agreements. In this capacity, FRBNY enters into agreements
under which German government securities are purchased from, and subsequently resold to,
private counterparties. Such transactions are settled through a tri-party agent, Deutsche Bank.
The securities are held by Deutsche Bank for FRBNY pending resale and are not transferred
back to a private counterparty upon resale until cash has been received.



                                                 12

Note 2. Cash and Cash Equivalents (Continued)
The FRBNY instructs the tri-party agent on matters related to these investments. The amounts held
as of September 30, 2006 and September 30, 2005 are as follows:

September 30 (In Thousands)                                      2006                 2005

Cash and Cash Equivalents:

U. S. Government Securities                                 $ 15,711,045         $ 15,237,881

FCDAs:

   European Euro                                                4,187,722            3,855,973
   Japanese Yen                                                 2,621,990            2,719,490

Total Foreign Currency Denominated Assets                       6,809,712            6,575,463

Total Cash and Cash Equivalents                             $ 22,520,757         $ 21,813,344

Note 3. Other FCDAs
Operations of the ESF result in the holding of various foreign currencies. The ESF normally
invests its foreign currency holdings in interest bearing assets issued by or held through foreign
governments or monetary authorities. Other FCDAs are assets with maturities greater than three
months, and include foreign currencies acquired under swap agreements with various countries
(See Note 7).

September 30 (In Thousands)                                      2006                 2005

Other FCDAs:

   European Euro                                            $   3,830,956        $   3,557,109

Total Other FCDAs                                           $   3,830,956        $   3,557,109

Note 4. Special Drawing Rights (SDR)
The SDR is an international reserve asset created by the IMF. It was created as a supplement to
existing reserve assets, and on several occasions SDRs have been allocated by the IMF to
members participating in the IMF’s SDR department. Its value as a reserve asset derives,
essentially, from the commitments of participants to hold and accept SDRs and to honor various
obligations connected with its proper functioning as a reserve asset.




                                               13

Note 4. Special Drawing Rights (SDR) (Continued)
Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated to or otherwise
acquired by the United States are resources of ESF. SDRs, once allocated, are permanent
resources unless:

   a.	 they are canceled by an 85 percent majority decision of the total voting power of the
       Board of Governor’s;

   b.	 the SDR Department of the IMF is liquidated;

   c.	 the IMF is liquidated; or

   d.	 the United States chooses to withdraw from the IMF or terminate its participation in the
       SDR Department.

Except for the payment of interest and charges on SDR allocations to the United States, the
payment of the ESF’s liability related to the SDR allocations is conditional on events listed
above, in which the United States has a substantial or controlling voice. Allocations of SDRs
were made on January 1, 1970, 1971, 1972, 1979, 1980 and 1981. Since 1981, the IMF has
made no further allocations of SDRs. As of September 30, 2006 and September 30, 2005, the
amounts of SDR allocations were the equivalent of $7.2 billion and $7.1 billion, respectively.

On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the
U. S. dollar, of each of the four freely usable weighted currencies, as defined by the IMF. These
currencies are the U. S. dollar, the European Euro (components consist of the French and
German weights), the Japanese yen, and the pound sterling. The ESF’s SDR holdings and
allocations are revalued monthly based on the SDR valuation rate calculated by the IMF, and an
unrealized gain or loss on revaluation is recognized.

During Fiscal Years (FY) 2006 and 2005, the ESF purchased, at the prevailing rates, $210
million and $316 million, respectively, equivalent of SDRs received from the IMF by the
General Fund of the U. S. Government as remuneration (interest) on the U. S. reserve position in
the IMF, and paid the General Fund $0.5 million in fiscal year 2006 and in fiscal year 2005, in
interest on dollars due the General Fund in return for SDRs received as remuneration. ESF sold
SDRs in FY 2005 to Argentina in the amount of $4.9 billion, but did not sell or purchase SDRs
from participating members during FY 2006.




                                               14

Note 4. Special Drawing Rights (SDR) (Continued)
The following charts reflect the actual activity (i.e. amounts paid and received) related to SDRs
during fiscal years 2006 and 2005.

                                                                                          Dollar

 As of September 30, 2006 (In Thousands)                            SDR                 Equivalent


 Special Drawing Rights (In Thousands):

 Beginning Balance:                                           $   5,688,093        $     8,244,662

   Interest Received on Holdings                                    187,834                274,821

   Interest Paid on Allocations                                    (157,339)              (230,221)

   Remunerations and Reimbursements                                 143,707                209,521

   IMF Annual Assessment                                               (274)                  (395)

   Net Gain on Valuation of Holdings                                    -                  156,122


 Ending Balance                                               $   5,862,021        $     8,654,510

                                                                                          Dollar

 As of September 30, 2005 (In Thousands)                            SDR                 Equivalent


 Special Drawing Rights (In Thousands):

 Beginning Balance:                                           $    8,701,206        $ 12,781,984
   Interest Received on Holdings                                     187,609             280,786
   Interest Paid on Allocations                                     (111,438)           (166,673)
   Remunerations and Reimbursements                                  211,059             316,015
   IMF Annual Assessment                                                (343)               (518)
   Sales                                                          (3,300,000)         (4,913,104)
   Net (Loss) on Valuation of Holdings                                   -               (53,828)

 Ending Balance                                               $   5,688,093         $     8,244,662

Note 5. Investments and Related Interest
In accordance with SFAS 115, “Accounting for Certain Investments in Debt and Equity
Securities”, securities that the ESF has both the positive intent and ability to hold to maturity are
classified as investment securities held to maturity and carried at historical cost, adjusted for
amortization of premiums and accretion of discounts. Interest on investment securities,
amortization of premiums, and accretion of discounts are reported in interest on investment
securities.




                                                 15

Note 5. Investments and Related Interest (Continued)
The following schedule shows investment securities at their amortized cost and by year of
maturity as of September 30, 2006 and September 30, 2005. There are no securities maturing
after ten years.

September 30                                                2006               2005

Securities, Held to Maturity (In Thousands):

All Securities (at Amortized Cost)

   German Bonds                                        $   1,765,920      $   1,634,234
   French Bonds                                            1,212,807          1,257,154
   French Notes                                              802,045            601,800
   Japanese T - Bills                                           -             1,986,035
   Japanese Financing Bills                                     -               873,863
   Japanese Government Bonds                               5,390,607          2,756,328

Total Amortized Cost                                   $   9,171,379      $   9,109,414

Maturing Within 1 Year

Fair Value:

   German Bonds                                        $     261,191      $     394,080
   French Bonds                                              347,037             83,416
   French Notes                                               48,319            248,473
   Japanese T - Bills                                           -             1,986,049
   Japanese Financing Bills                                     -               873,863
   Japanese Government Bonds                               3,689,566             88,277

Total Fair Value                                       $   4,346,113      $   3,674,158

Amortized Cost:

   German Bonds                                        $     254,558      $     377,927
   French Bonds                                              332,441             79,400
   French Notes                                               47,663            243,114
   Japanese T - Bills                                           -             1,986,035
   Japanese Financing Bills                                     -               873,863
   Japanese Government Bonds                               3,690,093             88,287

Total Amortized Cost                                   $   4,324,755      $   3,648,626




                                               16

Note 5. Investments and Related Interest (Continued)

September 30                                                2006                2005
Gross Unrealized Holdings Gain (Loss):

   German Bonds                                        $       6,633       $     16,153
   French Bonds                                               14,596              4,016
   French Notes                                                   656             5,359
   Japanese T - Bills                                           ­                     14
   Japanese Financing Bills                                     -                  ­
   Japanese Government Bonds                                    (527)                (10)

Total Gross Unrealized Holdings Net Gain               $      21,358       $     25,532

Maturing after 1 Year through 5 Years (German, French Bonds/Notes, & Japanese Bonds)

Fair Value:

   German Bonds                                        $   1,550,346       $   1,316,433
   French Bonds                                              907,916           1,244,827
   French Notes                                              757,851             371,952
   Japanese Government Bonds                               1,696,932           2,667,884

Total Fair Value                                       $   4,913,045       $   5,601,096

Amortized Cost:

   German Bonds                                        $   1,511,362       $   1,240,992
   French Bonds                                              880,366           1,177,754
   French Notes                                              754,382             358,686
   Japanese Government Bonds                               1,700,514           2,668,041

Total Amortized Cost                                   $   4,846,624       $   5,445,473

Gross Unrealized Holdings Gain (Loss):

   German Bonds                                        $      38,984       $     75,441
   French Bonds                                               27,550             67,073
   French Notes                                                3,469             13,266
   Japanese Government Bonds                                  (3,582)              (157)

Total Gross Unrealized Holdings Net Gain               $      66,421       $    155,623




                                            17

Note 5. Investments and Related Interest (Continued)
(Maturing after 5 Years through 10 Years (German Bonds only)

September 30                                                     2006                2005
Total Fair Value                                                   -            $      17,472

Total Amortized Cost                                               -            $      15,315

Total Gross Unrealized Holdings Gain                               -            $        2,157

Note 6. Certificates Issued to Federal Reserve Banks
The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue
certificates, not to exceed the value of SDR holdings, to the Federal Reserve Bank in return for
interest free dollar amounts equal to the face value of certificates issued (SDR monetization).
The certificates may be issued for the purpose of financing the acquisition of SDRs from other
countries or to provide resources for financing other ESF operations. Certificates issued are to
be redeemed by ESF at such times and in such amounts as the Secretary of the Treasury may
determine (SDR demonetization).

As of September 30, 2006 and September 30, 2005 the amounts of SDR certificates outstanding
were $2.2 billion, while the value of SDR holdings was $8.7 billion and $8.2 billion, for a
difference of $6.5 billion and $6 billion, respectively. During fiscal years 2006 and 2005, ESF
transacted no monetizations or demonetizations.

Note 7. Foreign Currency Agreements and Guarantees
Foreign Currency Agreements represent swap agreements between Treasury and various
countries that provide for drawings of dollars by those countries and/or drawings of foreign
currencies by Treasury. The Treasury enters into these agreements through the ESF. Any
balances the ESF may hold under such agreements are held for other than trading purposes and
are reflected as Other Foreign Currency Denominated Assets in the Statement of Financial
Position (See Note 3). The ESF is exposed to credit risk on foreign currency agreements in the
event of default by counterparties to the extent of any amounts that have been recorded in the
Statement of Financial Position. Market risk occurs as a result of fluctuations in currency
exchange rates. The ESF is not exposed to market risk on foreign currency agreements that
could occur as a result of fluctuations in currency exchange rates. Under these agreements, the
ESF will receive an agreed upon amount in dollars upon maturity regardless of currency
fluctuations.

ESF enters into guarantee agreements which represent commitments by Treasury with lenders
and/or investors that provide for repayment of all or part of the principal and/or interest on
certain debt obligations of a borrower and/or issuer. ESF is exposed to credit risk on guarantees



                                               18

Note 7. Foreign Currency Agreements and Guarantees (Continued)
in the event it has to honor a guarantee and is unable to recover from the borrower amounts
advanced under the guarantee. ESF did not enter into any guarantee agreements during FYs
2006 and 2005.

ESF’s foreign currency agreements consisted of the following at September 30, 2006 and
September 30, 2005:

In April 1994, Treasury signed the North American Framework Agreement, which includes an
Exchange Stabilization Agreement (ESA), with Mexico. The ESA provides for a $3 billion
standing swap line. The amounts and terms (including the assured source of repayment) of any
new borrowings under the North American Framework Agreement would need to be negotiated.
There were no drawings outstanding on these agreements as of September 30, 2006 and 2005. In
December 2005, the Treasury and FRB extended this agreement to December 2006.




                                            19

